Audit Report




OIG-12-042
SAFETY AND SOUNDNESS: Material Loss Review of Pacific
Coast National Bank, San Clemente, California
February 27, 2012




Office of
Inspector General
Department of the Treasury
Contents

Audit Report
  Causes of Pacific Coast’s Failure .................................................................           2

      High Overhead Expenses and Operating Losses ........................................                      3
      Aggressive, Highly Concentrated Growth Strategy ....................................                      4
      Inexperienced President/COO, Inadequate Board Oversight, and
         High Staff Turnover ..........................................................................         6

  OCC’s Supervision of Pacific Coast .............................................................              7
    Pacific Coast’s Growth and Loan Concentrations Not Properly Addressed ....                                  8
    Pacific Coast’s Inadequate Credit Risk Management Practices and Appraisal
       Reviews Not Properly Addressed ........................................................                  9
    Pacific Coast’s Executive Management Issues and High Personnel Turnover
       Not Adequately Addressed ................................................................              10
    OCC’s Use of Enforcement Action and PCA .............................................                     11
    Other Matter ........................................................................................     12

  Concluding Remarks .................................................................................        15

Appendices
  Appendix     1:      Objectives, Scope, and Methodology ....................................                17
  Appendix     2:      Background........................................................................     20
  Appendix     3:      Management Response .......................................................            22
  Appendix     4:      Major Contributors to This Report .........................................            23
  Appendix     5:      Report Distribution ..............................................................     24

Abbreviations
  ALLL                 allowance for loan and lease losses
  CCO                  chief credit officer
  CEO                  chief executive officer
  COO                  chief operating officer
  CRE                  commercial real estate
  FDIC                 Federal Deposit Insurance Corporation
  MRA                  matter requiring attention
  OCC                  Office of the Comptroller of the Currency
  PCA                  prompt corrective action
  ROE                  report of examination
  TARP                 Troubled Asset Relief Program


                       Material Loss Review of Pacific Coast National Bank, N.A.                            Page i
                       (OIG-12-042)
         This Page Intentionally Left Blank.




Material Loss Review of Pacific Coast National Bank, N.A.   Page ii
(OIG-12-042)
                                                                                                        Audit
OIG
The Department of the Treasury
                                                                                                        Report
Office of Inspector General

 




                                            February 27, 2012

                                            John G. Walsh
                                            Acting Comptroller of the Currency

                                            This report presents the results of our material loss review of the
                                            failure of Pacific Coast National Bank, N.A. (Pacific Coast), of San
                                            Clemente, California, and of the Office of the Comptroller of the
                                            Currency’s (OCC) supervision of the institution. OCC closed Pacific
                                            Coast, a relatively new bank chartered in 2005, and appointed the
                                            Federal Deposit Insurance Corporation (FDIC) as receiver on
                                            November 13, 2009. This review was mandated by section 38(k)
                                            of the Federal Deposit Insurance Act because of the magnitude of
                                            Pacific Coast’s estimated loss to the Deposit Insurance Fund. 1,2 As
                                            of December 31, 2011, FDIC estimated that the loss would be
                                            $29.8 million.

                                            Our objectives were to determine the causes of Pacific Coast’s
                                            failure; assess OCC’s supervision of Pacific Coast, including
                                            implementation of the prompt corrective action (PCA) provisions of
                                            section 38; and make recommendations to prevent a material loss
                                            in the future. To accomplish these objectives, we reviewed the
                                            supervisory files and interviewed officials at OCC and FDIC. We
                                            conducted our fieldwork from February 2010 through May 2010.
                                            Appendix 1 contains a more detailed description of our review
                                            objectives, scope, and methodology. Appendix 2 contains
                                                            
1
  At the time of Pacific Coast’s failure, section 38(k) defined a loss as material if it exceeded the greater
of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k)
defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter.
2
  Certain terms that are underlined when first used in this report, are defined in Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (Apr. 11, 2011). That document is available on the
Treasury Office of Inspector General’s (OIG) website at http://www.treasury.gov/about/organizational-
structure/ig/Documents/oig11065%20(508).pdf.


                                            Material Loss Review of Pacific Coast National Bank, N.A.       Page 1
                                            (OIG-12-042) 
              background information on Pacific Coast’s history and OCC’s
              assessment fees and examination hours.

              In brief, our review found the primary causes of Pacific Coast’s
              failure were high overhead expenses and operating losses, and
              management’s pursuit of a highly concentrated growth strategy in
              construction and development and commercial real estate (CRE)
              lending. Pacific Coast’s management and board of directors did not
              properly manage the bank’s high-cost structure and aggressive
              growth, a situation that was aggravated by high turnover in the
              bank’s lending department. Regarding supervision, OCC should
              have more forcefully addressed the bank’s rapid growth, high
              concentrations, inadequate credit risk management practices, and
              inadequate management and board oversight using matters
              requiring attention (MRA) and appropriate CAMELS ratings. We
              concluded that once the supervision of Pacific Coast was
              transferred to OCC’s Special Supervision Division in April 2009, its
              supervisory actions and use of PCA was appropriate.

              We are reporting on another matter identified during our material
              loss review. We noted that Pacific Coast’s holding company
              received $4.1 million under the Troubled Asset Relief Program
              (TARP) Capital Purchase Program which was downstreamed to the
              bank. The holding company was unable to repay the TARP funds
              when the bank failed. While we found OCC’s review of the holding
              company’s TARP application to be consistent with Capital Purchase
              Program guidance, we believe OCC should have reaffirmed the
              bank’s condition before Treasury disbursed funds to Pacific Coast’s
              holding company.

              We are not making any recommendations to OCC as a result of our
              material loss review of Pacific Coast. We provided a draft of this
              report to OCC for its review. In a written response, which is
              included as appendix 3, OCC stated that it agreed with our
              conclusions as to the causes of Pacific Coast’s failure.


Causes of Pacific Coast’s Failure
              The primary cause of Pacific Coast’s failure was management’s
              pursuit of a highly concentrated growth strategy in construction
              and development and CRE lending to offset the de novo bank’s

              Material Loss Review of Pacific Coast National Bank, N.A.      Page 2
              (OIG-12-042)
operating losses caused by high overhead expenses relative to
earning assets. In addition, Pacific Coast’s president/chief operating
officer (COO) had limited experience in executive management
positions; and most of its board directors had no prior experience
as board members. The bank’s board of directors also failed to
adequately oversee the bank’s operations. Also impacting the
bank’s operations was the high turnover in key credit and lending
personnel, which led to poor credit risk management practices,
including credit administration and risk identification issues.

High Overhead Expenses and Operating Losses

Pacific Coast opened on May 16, 2005, with a main office in San
Clemente, California, and a branch in Encinitas, California. These
offices were located in high-cost communities which contributed to
the bank’s high overhead expenses and became a burden when the
performance of the branch office did not meet expectations.

In addition, Pacific Coast started its operations with four executive
officers—a chief executive officer (CEO), president/COO, chief
credit officer (CCO), and chief financial officer (CFO). According to
OCC examiners, de novo banks typically start operations with three
executive officers. As a result, Pacific Coast’s personnel expenses
were higher than those of other new banks. Furthermore, in 2007,
Pacific Coast’s higher personnel expenses continued as the bank
employed 10 to 12 more support staff than had been originally
projected. The support staff members were hired for the loan
administration department to manage the increased lending volume
and projected loan growth in 2008.

For 2006, Pacific Coast reported a $4.1 million operating loss,
substantially more than the $1.8 million loss it projected. The loss
was primarily due to high overhead expenses and lower-than-
projected noninterest income. The bank’s overhead costs continued
to increase as the bank expanded its back-office infrastructure and
added staff in anticipation of future construction and development
and CRE loan growth. Also contributing to the losses was an
unanticipated increase in the amortization of stock option
expenses.




Material Loss Review of Pacific Coast National Bank, N.A.       Page 3
(OIG-12-042)
                                            For 2007, Pacific Coast reported a $3.7 million loss, more than the
                                            $3 million it projected earlier that year. This operating loss was a
                                            result of high overhead expenses as well as a higher than projected
                                            allowance for loan and lease losses (ALLL) provision. According to
                                            OCC, as the risk exposure from management’s pursuit of high-risk
                                            growth in construction and CRE loans grew, the bank’s ALLL
                                            provisions increased. In the fourth quarter of 2007, Pacific Coast
                                            increased its ALLL provision by $810,000. At December 31, 2008,
                                            Pacific Coast reported $7.7 million in operating losses, and its ALLL
                                            provision increased by $5.8 million, or 416 percent, from the
                                            previous year.

                                            Aggressive, Highly Concentrated Growth Strategy

                                            Pacific Coast’s original business plan called for one of the bank’s
                                            primary products to be Small Business Administration (SBA) 7(a)
                                            and 504 loans. 3 However, slow growth in SBA lending, along with
                                            operating losses, led Pacific Coast’s management to implement an
                                            aggressive growth strategy to generate profits.

                                            Pacific Coast’s assets grew by 100 percent in 2007 and 28
                                            percent in 2008. The growth in 2007 was primarily from
                                            purchasing loan participations. In this regard, Pacific Coast
                                            purchased two sets of loan participations from Vineyard Bank
                                            (Vineyard) 4 totaling $25 million. 5 The growth was highly
                                            concentrated in the declining construction and development and
                                            CRE markets and led to high concentration risk. According to OCC,
                                            Pacific Coast’s portfolios continued to grow at a time when other
                                            banks had ceased this type of lending.



                                                            
3
  SBA 7(a) loans provide small businesses with long-term, fixed rate financing to acquire major fixed
assets for expansion or modernization. SBA 504 loans offers very small loans to start-up, newly
established or growing business concerns.
4
  Vineyard was closed by OCC on July 17, 2009, and we performed a material loss review of the failure
(OIG, Safety and Soundness: Material Loss Review of Vineyard Bank, N.A., OIG-10-044 (July 13,
2010)).
5
  The $25 million was comprised of $12 million in CRE and $13 million in speculative construction
loans. During the 2008 examination, OCC noted that Pacific Coast’s purchase of $13 million of
speculative construction loan participations from Vineyard did not conform to the requirements of OCC
Banking Circular 181 and caused large, unplanned provisions to the bank’s ALLL balance.

                                            Material Loss Review of Pacific Coast National Bank, N.A.      Page 4
                                            (OIG-12-042)
                                            At December 31, 2006, Pacific Coast’s construction and
                                            development and CRE loan portfolios represented 144 percent of
                                            capital; by December 31, 2007, the portfolios represented 582
                                            percent. At September 30, 2009, real estate loans and commercial
                                            lending were 2,082 percent and 866 percent of capital,
                                            respectively. This dramatic increase in the bank’s loans as a
                                            percentage of total risk based capital was due to depletion of the
                                            bank’s capital from deterioration in its loan portfolios and losses.

                                            OCC guidance to examiners specifies the following levels at which
                                            an institution’s CRE loans represent a concentration risk requiring
                                            further analysis:

                                            •      total reported loans for construction, land development, and
                                                   other land represent 100 percent or more of the institution’s
                                                   total risk-based capital; or
                                            •      total CRE loans represent 300 percent or more of the
                                                   institution’s total risk-based capital, and the outstanding balance
                                                   of the institution’s CRE loan portfolio has increased by 50
                                                   percent or more during the prior 36 months. 6

                                            The OCC guidance did not establish specific CRE lending limits;
                                            rather, it promoted sound risk management practices and
                                            appropriate levels of capital to enable institutions to continue to
                                            pursue CRE lending in a safe and sound manner. The sophistication
                                            of an institution’s CRE risk management processes should be
                                            appropriate to the size of the portfolio, as well as the level and
                                            nature of concentrations and the associated risk to the institution.
                                            In this regard, institutions should address the following key
                                            elements in establishing a risk management framework that
                                            effectively identifies, monitors, and controls CRE concentration
                                            risk:

                                            •      board and management oversight,
                                            •      portfolio management,
                                            •      management information systems,
                                            •      market analysis,
                                            •      credit underwriting standards,
                                                            
6
 OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Dec. 6, 2006).

                                            Material Loss Review of Pacific Coast National Bank, N.A.           Page 5
                                            (OIG-12-042)
•   portfolio stress testing and sensitivity analysis, and
•   credit risk review function.

Despite its high concentrations in CRE lending, Pacific Coast
operated in a manner that was inconsistent with this guidance.

Inexperienced President/COO, Inadequate Board Oversight, and
High Staff Turnover

Key Management Official Lacked Experience at the Executive Level

During a field examination conducted before Pacific Coast opened,
OCC focused much of its attention on the president/COO’s
inexperience in executive positions. The president/COO had
previously held lower-level officer positions and was unknown to
the examiners. So, while OCC approved the bank’s charter, it did
so with the understanding that the CEO, who was a seasoned
commercial banker and manager, would mentor the inexperienced
president/COO for 3 years before the president/COO took over as
CEO. When Pacific Coast’s condition significantly deteriorated in
2008, OCC found the mentor CEO and the president/COO’s
performance to be critically deficient and specifically responsible
for the decisions that led to the bank’s poor condition.

Inadequate Board Oversight

Pacific Coast’s board of directors consisted of many first-time
board members. The board approved bank management’s 2007
plan to adopt an aggressive, high-risk growth strategy and did not
adequately monitor and control concentration risk. The board also
allowed management to continue making construction and
development and CRE loans when the real estate market showed
visible signs of weakness. In addition, the board failed to select and
appoint effective executive officers.

High Lending Department Turnover

Pacific Coast experienced high turnover in its lending department.
Within a year and a half after its 2005 opening, all of the original
loan officers in its main office had been terminated. During its
2009 full-scope examination, OCC examiners noted that the bank
essentially operated without a qualified full-time CCO from

Material Loss Review of Pacific Coast National Bank, N.A.       Page 6
(OIG-12-042)
                                            November 2008 to April 2009. According to OCC, Pacific Coast’s
                                            high turnover in lending personnel and leadership, along with
                                            inadequate experience and training resulted in poor underwriting,
                                            credit administration, risk identification, and credit risk
                                            management, which ultimately led to deficiencies in the bank’s
                                            loan portfolio.

                                            In summary, Pacific Coast’s management and board of directors
                                            did not properly manage the bank’s high-cost structure and
                                            aggressive growth, a situation that was aggravated by high
                                            turnover in the bank’s lending department. OCC closed Pacific
                                            Coast on November 13, 2009, and appointed FDIC as its receiver.


OCC’s Supervision of Pacific Coast
                                            OCC’s supervision of Pacific Coast did not prevent a material loss
                                            to the Deposit Insurance Fund. OCC did not forcefully address the
                                            bank’s rapid growth, high concentrations, inadequate credit risk
                                            management practices, the president/COO’s inexperience in
                                            executive positions, and inadequate board of director oversight.
                                            Using its enforcement discretion, OCC delayed taking non-PCA
                                            enforcement action in response to a potential buyer of the bank.

                                            Table 1 summarizes OCC’s examinations of Pacific Coast and
                                            enforcement actions taken from 2006 to 2009. 7 Generally, MRAs
                                            represent the most significant items reported in reports of
                                            examination (ROE) requiring corrective action.




                                                            
7
 OCC conducted its examinations and performed offsite monitoring of Pacific Coast in accordance with
the timeframes prescribed in OCC’s Comptroller’s Handbook.

                                            Material Loss Review of Pacific Coast National Bank, N.A.     Page 7
                                            (OIG-12-042)
              Table 1: Summary of OCC’s Examinations and Enforcement Actions for Pacific
                       Coast

                                                        Examination Results
    Date started                                               Number of
    and type of    Assets (in    CAMELS             Number     recommendations         Enforcement
    examination    (millions)    rating             of MRAs    or suggestions          actions
    5/30/2006
    Full-scope     $36           2/122312           1             6                    None
    examination
    4/2/2007
    Full-scope     $56           2/122311           None          7                    None
    examination
    4/14/2008
    Full-scope     $115          2/222422           4             2                    None
    examination
    9/30/2008a
    On-site        $138          2/222432           None          None                 None
    monitoring
                                                                                       Notice of
                                                                                       intent to
    12/18/2008b                                                                        establish
    Targeted       $138          3/333432           None          None                 minimum
    examination                                                                        capital levels
                                                                                       issued
                                                                                       3/31/2009
                                                                                       Consent
                                                                                       order (formal
    4/6/2009c
                                                                                       enforcement
    Full-scope     $160          5/555553           4             2
                                                                                       action)
    examination
                                                                                       issued
                                                                                       8/18/2009
a
 This monitoring resulted in a downgrade in the bank’s CAMELS component rating for liquidity.
b
  This targeted asset quality examination resulted in interim downgrades of the bank’s CAMELS
composite rating and its CAMELS component ratings for capital adequacy, asset quality, and
management.
c
 FDIC accompanied OCC under the FDIC’s back-up authority during this examination.
Sources: OCC ROEs, consent orders, and PCA directives; Pacific Coast call reports.


              Pacific Coast’s Growth and Loan Concentrations Not Promptly
              Addressed

              Pacific Coast’s assets grew considerably after the OCC
              examination in 2007 and into 2008; the growth in 2007 was
              primarily from purchasing loan participations. By late 2007, Pacific
              Coast exhibited several indicators of asset quality deterioration as
              defined in OCC guidance on CRE concentration risk management
              including (1) significant loan growth, (2) increasing nonperforming

              Material Loss Review of Pacific Coast National Bank, N.A.                         Page 8
              (OIG-12-042)
                                            loans and significant ALLL changes, (3) large volumes of policy and
                                            underwriting exceptions, (4) inadequate loan reviews, and
                                            (5) increasing concentrations.

                                            In 2006, a year after Pacific Coast opened, OCC recommended
                                            bank management improve its concentration management and
                                            reporting, and the reporting was improved. In 2008, OCC
                                            suggested that the bank’s board of directors approve CRE risk
                                            exposure limits to conform to changes in the bank's strategies and
                                            respond to changes in market conditions 8 . OCC, however, did not
                                            report concentration management deficiencies as an MRA until it
                                            issued its 2009 ROE. At that time, CRE loans represented 937
                                            percent of the bank’s risk-based capital.

                                            According to an OCC official, successful de novo banks normally
                                            have a more diversified portfolio. Pacific Coast’s excessive
                                            concentrations made the bank extremely vulnerable to fluctuations
                                            in the real estate market. We believe that OCC should have taken
                                            stronger action to address the drastic increase in concentrations
                                            that occurred at Pacific Coast in 2007, well in advance of its 2009
                                            MRA.

                                            Pacific Coast’s Inadequate Credit Risk Management Practices and
                                            Appraisal Reviews Not Promptly Addressed

                                            According to the Comptroller’s Handbook for OCC’s Bank
                                            Supervision Process, the CAMELS component rating for asset
                                            quality reflects the quantity of existing and potential credit risk
                                            associated with the bank’s loan and investment portfolios. The
                                            ability of management to identify, measure, monitor, and control
                                            credit risk; and an evaluation of the adequacy of the ALLL is also
                                            reflected in this rating. An asset quality rating of 3 is assigned
                                            when: (1) asset quality or credit administration practices are less
                                            than satisfactory; (2) trends are stable or indicate deterioration in
                                            asset quality; (3) there is an increase in risk exposure; or (4) there
                                            is in general a need to improve credit administration and risk
                                            management practices.

                                                            
8
  OCC noted four matters requiring attention (MRAs) as a result of the 2008 examination. These MRAs
involved credit risk management, problem loan reporting, appraisal reviews, and purchases of loans in
whole or in part-participations.

                                            Material Loss Review of Pacific Coast National Bank, N.A.         Page 9
                                            (OIG-12-042)
As early as 2006, OCC noted issues with the manner in which
Pacific Coast management monitored its loan portfolio and
concentration risks. The 2006 ROE included an MRA for the bank’s
failure to consider and formally document the impact of economic
conditions in its ALLL analysis. Pacific Coast’s special mention
loans increased from 0 percent to 12 percent of total loans from
2006 to 2007, prompting OCC to recommend that management
closely monitor loans for early signs of deterioration.

During its April 2008 full-scope examination of Pacific Coast, OCC
noted several credit administration issues involving risk
identification, problem loan reporting, loan appraisal reviews, and
purchased participations. Although OCC reported four MRAs in the
bank’s 2008 ROE to address these issues, it did not downgrade the
bank’s CAMELS component rating of 2 for asset quality at that
time. In fact, OCC did not downgrade the asset quality rating to 3
until its December 2008 targeted examination.

We believe that OCC’s concerns with the bank’s credit risk
management practices, which included credit administration and
asset quality concerns in 2006 and 2008, along with the bank’s
highly concentrated growth and significant changes to the bank’s
ALLL provisions in 2007 should have resulted in a downgrade of
asset quality at the end of the April 2008 examination. When we
asked OCC examiners why they did not downgrade asset quality as
a result of their April 2008 examination, they said they felt the
MRAs would address the issue and did not think a downgrade was
necessary.

In addition, we note that OCC gave bank management credit for
addressing asset quality MRAs during its review of the holding
company’s TARP application in November 2008, but did not
validate remediation of the MRAs until the 2009 full-scope
examination.

Pacific Coast’s Executive Management Issues and High Personnel
Turnover Not Adequately Addressed

The CAMELS component rating for management involves the
capability of the board of directors and management, in their
respective roles, to identify, measure, monitor, and control the


Material Loss Review of Pacific Coast National Bank, N.A.      Page 10
(OIG-12-042)
risks of an institution’s activities and to ensure a financial
institution’s safe, sound, and efficient operation in compliance with
applicable laws and regulations. This rating should reflect the
board’s and management’s ability as it applies to all aspects of
banking operations as well as other financial service activities in
which the institution is involved.

During the chartering process for Pacific Coast in 2004, OCC noted
concerns about the president/COO’s ability to lead the bank. OCC
also had concerns about whether the president/COO would have
sufficient support from the bank’s board of directors and other
management personnel to compensate for his lack of executive
experience. OCC concluded there would be sufficient support from
the bank’s board. As mentioned above, OCC approved the bank’s
charter with the understanding that the CEO would mentor the
president/COO. While OCC reviewed bank management during its
safety and soundness examinations, OCC did not require the
bank’s board to address management deficiencies despite the
(1) concerns raised during the chartering process, (2) high turnover
of key lending personnel, (3) poor decisions of bank management,
(4) frequent absences of the CEO, and (5) inadequate oversight by
the bank’s board.

The 2006, 2007, 2008, and 2009 ROEs did not contain any MRAs
that addressed bank management or personnel turnover issues. In
addition, with respect to the high turnover in the CCO position and
lending personnel, OCC’s 2007 ROE only recommended, but did
not require, that bank management pay close attention to the
significant changes in lending personnel and loan support staff.
Pacific Coast received a CAMELS management component rating
of 2 during the 2006, 2007, and 2008 full-scope examinations. It
was not downgraded to 3 until the December 2008 targeted
examination.

OCC’s Use of Enforcement Action and PCA

When the bank’s CAMELS composite rating was downgraded from
3 to 5 as a result of the 2009 full-scope examination, OCC
transferred the supervision of Pacific Coast to its Special
Supervision Division on April 23, 2009. At that time, OCC
considered taking enforcement action but delayed action until


Material Loss Review of Pacific Coast National Bank, N.A.      Page 11
(OIG-12-042)
               August 2009. We consider the supervisory discretion that was
               exercised by OCC to be reasonable. Also, we concluded that
               necessary PCA was taken. The following is a chronology of related
               events.

               •   On April 24, 2009, a private equity group expressed interest in
                   acquiring Pacific Coast. In response, the Special Supervision
                   Division began pursuing various receivership options for the
                   bank.

               •   Pacific Coast’s capital fell to the PCA undercapitalized category
                   when it filed its call report for March 31, 2009. OCC issued a
                   PCA directive on May 12, 2009, requiring the bank to submit
                   an acceptable capital restoration plan by June 15, 2009. Pacific
                   Coast did submit a plan. On July 21, 2009, OCC informed
                   Pacific Coast’s board that the plan was not acceptable because
                   it did not contain the information required, lacked specificity,
                   was based on future events outside the bank’s control, and did
                   not include specific steps to address unsafe and unsound
                   practices.

               •   On July 31, 2009, the Washington Supervision Review
                   Committee granted approval for issuance of a cease and desist
                   (C&D) order and imposition of a PCA directive if the bank
                   refused a consent order.

               •   On August 8, 2009, the private equity group withdrew its
                   statement of intent to acquire Pacific Coast.

               •   On August 18, 2009, Pacific Coast’s management and board
                   agreed to the C&D order. The bank was closed approximately 3
                   months later.

Other Matter
               TARP Funds Received by Pacific Coast

               On October 31, 2008, Pacific Coast’s holding company, Pacific
               Coast National Bancorp, applied for funds under the TARP Capital
               Purchase Program. To determine the bank’s eligibility to receive
               TARP funds, OCC’s local field office conducted a review of the


               Material Loss Review of Pacific Coast National Bank, N.A.      Page 12
               (OIG-12-042)
                                            bank’s financial condition using data as of June 30, 2008, and
                                            preliminary data as of September 30, 2008.

                                            The local field office recommended approval of the TARP
                                            application. The recommendation was based on an analysis of the
                                            bank’s financial position at the time of the application, including a
                                            review of the bank’s capital ratios, classified assets, and asset
                                            quality. In the documentation of its analysis, the field office noted
                                            that Pacific Coast experienced its first month of profitability in June
                                            2008. 9 The field office also noted that management had ceased
                                            acquiring loan participations, sold some of its criticized assets,
                                            raised $1.5 million in capital in September 2008, and had been
                                            working with special mention SBA loan borrowers. In addition, the
                                            field office stated that management had addressed the four MRAs
                                            from the 2008 full-scope examination, which OCC intended to
                                            verify during a targeted review in early 2009.

                                            The OCC field office’s assessment of Pacific Coast also described
                                            the management team as competent, able to resolve supervisory
                                            issues successfully, and generally conservative. It recommended
                                            approval of the TARP application. When we asked an OCC
                                            examiner about the assessment of management, we were told that
                                            the primary focus was on the financial strength of the bank.

                                            An OCC district official for the Western District said the TARP
                                            approval process was rigorous and cited the review of applications
                                            at the field and district levels. We also found that the Interagency
                                            TARP Capital Purchase Program Council approved Pacific Coast’s
                                            application before it was sent to Treasury. 10 The same OCC district
                                            official emphasized that bank management had addressed
                                            questions from OCC headquarters about liquidity, concentrations,
                                            and earnings prior to the TARP Capital Purchase Program Council
                                            recommending approval.


                                                            
9
  Although alternating months of profitability and losses are typical as a de novo bank becomes
profitable, OCC later stated that Pacific Coast’s profitability was achieved through superficial cost
control measures that included staff reductions. 
10
   The Interagency TARP Capital Purchase Program Council consisted of representatives from OCC,
FDIC, the Board of Governors of the Federal Reserve System, and the former Office of Thrift
Supervision.

                                            Material Loss Review of Pacific Coast National Bank, N.A.       Page 13
                                            (OIG-12-042)
On December 4, 2008, Treasury approved Pacific Coast National
Bancorp’s application for TARP funding. On January 16, 2009, the
holding company received approximately $4.1 million in TARP
funds, which it downstreamed to the bank in January, February,
and April 2009.

According to a senior OCC official, shortly after Pacific Coast
received the TARP funding, the “wheels fell off.” An OCC problem
bank analyst, who became involved with the bank after it issued its
December 31, 2008, call report, added that significant asset
quality problems hit the balance sheet that quarter. By
February 19, 2009, the bank fell to barely above adequately
capitalized and OCC district officials made inquiries to determine if
the bank had already received the TARP funds. On March 6, 2009,
OCC designated Pacific Coast to be in troubled condition due to
significant weaknesses in board and management oversight, credit
and concentration risk management, liquidity planning and
monitoring, and deterioration in the bank’s loan portfolio.

Pacific Coast National Bancorp’s TARP application went through
the appropriate review channels. However, the application was
submitted and approved just before OCC started its December
2008 onsite asset quality review and Pacific Coast received
updated loan appraisals which confirmed the significant
deterioration of its portfolio in the fourth quarter of 2008.

While we found OCC’s review of the holding company’s TARP
application to be consistent with Capital Purchase Program
guidance, given the tenuous nature of Pacific Coast financial
condition since its beginning and the problems noted by OCC with
high concentrations and management of its operations, we do find
its recommendation that the holding company receive TARP funds
to be premature without additional verification. We believe that
given these circumstances, it would have been prudent to have
reaffirmed the bank’s condition prior to Treasury disbursing the
TARP funds to Pacific Coast National Bancorp. Had it done so, we
believe that OCC may have reached a different conclusion about
Pacific Coast’s viability for TARP, and the $4.1 million in TARP
funds would not have been lost when the bank failed. This
underscores further the importance of ensuring that CAMELS
component ratings reflect the actual conditions found during


Material Loss Review of Pacific Coast National Bank, N.A.     Page 14
(OIG-12-042)
                                            examinations and deficient conditions are reported as MRAs as
                                            appropriate.


Concluding Remarks
                                            We are not making any new recommendations to OCC as a result
                                            of our material loss review of the Pacific Coast failure. As part of a
                                            previous material loss review we included a recommendation that
                                            OCC work with its regulatory partners to determine whether to
                                            propose changes to regulatory guidance and/or legislation to
                                            establish limits or other controls for concentrations that pose an
                                            unacceptable safety and soundness risk and determine an
                                            appropriate range of examiner response to high risk
                                            concentrations. 11 Our material loss review of Pacific Coast reaffirms
                                            the need for such limits or other controls on concentrations.

                                            As discussed above, we are critical of OCC’s recommendation of
                                            Pacific Coast National Bancorp for TARP funds. We did note that
                                            once deteriorating conditions at Pacific Coast became apparent,
                                            OCC did make inquiry on whether approved TARP funds had been
                                            paid. Since Treasury’s authority to make new commitments under
                                            TARP expired on October 3, 2010, we are not making any specific
                                            recommendations in this area. However, as new programs may
                                            evolve from the economic crisis, OCC should consider what
                                            circumstances may warrant additional verification when asked to
                                            review national banks or thrifts under consideration for funding
                                            under such programs.




                                                            

 OIG, Safety and Soundness: Material Loss Review of Union Bank, National Association, OIG-CA-10-
11

009 (May 11, 2010).

                                            Material Loss Review of Pacific Coast National Bank, N.A.      Page 15
                                            (OIG-12-042)
                                    * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-0384. Major contributors to this report
are listed in appendix 4.




Jeffrey Dye /s/
Audit Director




Material Loss Review of Pacific Coast National Bank, N.A.   Page 16
(OIG-12-042)
                                            Appendix 1
                                            Objectives, Scope, and Methodology




                                            We conducted this material loss review of Pacific Coast National
                                            Bank, N.A. (Pacific Coast), of San Clemente, California, in response
                                            to our mandate under section 38(k) of the Federal Deposit
                                            Insurance Act. 12 This section provides that if a deposit insurance
                                            fund incurs a material loss with respect to an insured depository
                                            institution, the inspector general for the appropriate federal banking
                                            agency is to prepare a report to the agency that:

                                            •      ascertains why the institution’s problems resulted in a material
                                                   loss to the insurance fund;
                                            •      reviews the agency’s supervision of the institution, including its
                                                   implementation of the Prompt Corrective Action (PCA)
                                                   provisions of section 38; and
                                            •      makes recommendations for preventing any such loss in the
                                                   future.

                                            At the time of the bank’s failure, section 38(k) defined a loss as
                                            material if it exceeded the greater of $25 million or 2 percent of
                                            the institution’s total assets. The law also requires the inspector
                                            general to complete the report within 6 months after it becomes
                                            apparent that a material loss has been incurred.

                                            We initiated the material loss review of Pacific Coast based on the
                                            loss estimate by the Federal Deposit Insurance Corporation (FDIC).
                                            As of December 31, 2011, FDIC estimated that the loss to the
                                            Deposit Insurance Fund from Pacific Coast’s failure would be
                                            $29.8 million.

                                            Our objectives were to determine the causes of Pacific Coast’s
                                            failure; assess the Office of the Comptroller of the Currency’s
                                            (OCC) supervision of Pacific Coast, including implementation of the
                                            PCA provisions of section 38; and make recommendations for
                                            preventing such a loss in the future. To accomplish our objectives,
                                            we conducted fieldwork at OCC’s headquarters in Washington, DC;
                                            OCC’s field office in Carlsbad, California; and FDIC’s Division of
                                            Resolutions and Receiverships in Irvine, California. We also
                                            interviewed personnel from OCC’s district office in Denver,
                                            Colorado, and FDIC’s Division of Supervision and Consumer
                                            Protection in both Orange County and San Francisco, California.
                                                            
12
     12 U.S.C. § 1831o(k).

                                            Material Loss Review of Pacific Coast National Bank, N.A.          Page 17
                                            (OIG-12-042)
Appendix 1
Objectives, Scope, and Methodology




We conducted our fieldwork from February 2010 through May
2010.

To assess the adequacy of OCC’s supervision of Pacific Coast, we
determined (1) when OCC first identified Pacific Coast’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also assessed whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following:

    •   We determined that the time period relating to OCC’s
        supervision of Pacific Coast covered by our audit would be
        from January 2006 through Pacific Coast’s failure on
        November 13, 2009. This period included quarterly
        monitoring as well as safety and soundness examinations.

    •   We reviewed OCC’s supervisory files and records for Pacific
        Coast from 2006 through 2009. We analyzed examination
        reports, supporting workpapers, and related supervisory
        correspondence. We performed these analyses to gain an
        understanding of the problems identified, the approach and
        methodology OCC used to assess the bank’s condition, and
        the regulatory action OCC used to compel bank management
        to address deficient conditions. We did not conduct an
        independent or separate detailed review of the external
        auditor’s work or associated workpapers other than those
        incidentally available through the supervisory files.

    •   We interviewed and discussed various aspects of Pacific
        Coast’s supervision with OCC officials and examiners to
        obtain their perspectives on the bank’s condition and the
        scope of the examinations.

    •   We interviewed officials from FDIC’s Division of Supervision
        and Consumer Protection and Division of Resolutions and
        Receiverships who were responsible for monitoring Pacific
        Coast for federal deposit insurance purposes and closing
        Pacific Coast.

Material Loss Review of Pacific Coast National Bank, N.A.      Page 18
(OIG-12-042)
                                            Appendix 1
                                            Objectives, Scope, and Methodology




                                                   •      We reviewed Pacific Coast documents inventoried by FDIC
                                                          upon closing the bank that were relevant to bank’s failure
                                                          and OCC’s supervision of the institution.

                                                   •      We assessed OCC’s actions based on its internal guidance
                                                          and requirements of the Federal Deposit Insurance Act. 13

                                            While not a required part of a material loss review under section
                                            38(k), we also reviewed OCC’s supervisory file and inquired of
                                            OCC personnel concerning OCC’s review and recommendation to
                                            the Department of the Treasury related to Pacific Coast National
                                            Bancorp’s application for Troubled Asset Relief Program (TARP)
                                            funds under the Capital Purchase Program. Pacific Coast National
                                            Bancorp was the holding company for Pacific Coast. Based on the
                                            application and OCC’s recommendation, Pacific Coast National
                                            Bancorp received $4.1 million in TARP funds.

                                            We conducted this performance audit in accordance with generally
                                            accepted government auditing standards. Those standards require
                                            that we plan and perform the audit to obtain sufficient, appropriate
                                            evidence to provide a reasonable basis for our findings and
                                            conclusions based on our audit objectives. We believe that the
                                            evidence obtained provides a reasonable basis for our findings and
                                            conclusions based on our audit objectives.




                                                            
13
     12 U.S.C. § 1820(d).


                                            Material Loss Review of Pacific Coast National Bank, N.A.           Page 19
                                            (OIG-12-042)
Appendix 2
Background




History of Pacific Coast National Bank

Pacific Coast National Bank (Pacific Coast) of San Clemente,
California, was a commercial community bank chartered in 2005. It
operated two full-service retail banking offices, with its main office
in San Clemente and an additional branch in Encinitas, California.
As of December 31, 2008, Pacific Coast had approximately $143
million in assets. As of September 30, 2009, Pacific Coast had
assets totaling approximately $131 million. Pacific Coast was
wholly owned by a publicly traded one-bank holding company,
Pacific Coast National Bancorp, Inc.

Pacific Coast’s principal markets included the coastal regions of
Southern Orange County and Northern San Diego County. Pacific
Coast’s original business plan focused on small business
administration (SBA) loan products, such as SBA 7(a) and SBA 504
loans. In addition, the bank was certified as a preferred lender
under SBA’s preferred lenders program. When the bank’s SBA loan
portfolio did not develop as expected, the bank began originating
primarily construction and land development and commercial real
estate loans. It also embarked on a large number of construction
and development and commercial real estate loan participations
with other financial institutions.

OCC Assessments Paid by Pacific Coast and OCC
Examination Hours

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
applies a surcharge to the institution’s assessment to cover
additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for 3-
rated institutions or by 100 percent for 4- and 5-rated institutions.

Table 3 shows the assessments that Pacific Coast paid to OCC
from 2006 through 2009.



Material Loss Review of Pacific Coast National Bank, N.A.       Page 20
(OIG-12-042)
Appendix 2
Background




Table 3: Assessments Paid by Pacific Coast to OCC, 2006-2009

                                Examination                    % of Total
Billing Period                    Rating         Amount Paid   Collection
01/01/2006–06/30/2006                 2              $11,083     0.004%
07/01/2006–12/31/2006                 2              $13,306     0.004%
01/01/2007–06/30/2007                 2              $16,160     0.005%
07/01/2007–12/31/2007                 2              $19,084     0.006%
01/01/2008–06/30/2008                 2              $24,602     0.007%
07/01/2008–12/31/2008                 2              $27,677     0.008%
01/01/2009–06/30/2009                 3              $29,094     0.008%
07/01/2009–12/31/2009                 5              $44,631     0.012%

Table 4 shows the number of OCC staff hours spent examining
Pacific Coast from 2006 through 2009.

Table 4: OCC Hours Spent Examining Pacific
Coast, 2006-2009

Examination              Number of Examination
Start Date                             Hoursa
5/30/2006                              386   hours
4/2/2007                               364   hours
4/14/2008                              605   hours
9/30/2008                               27   hours
12/18/2008                             270   hours
4/06/2009                              118   hours
Source: OCC.
a
  Hours are totaled for safety and soundness
examinations, information technology examinations,
and compliance examinations. They do not include
time spent performing off-site monitoring.




Material Loss Review of Pacific Coast National Bank, N.A.          Page 21
(OIG-12-042)
Appendix 3
Management’s Response




Material Loss Review of Pacific Coast National Bank, N.A.   Page 22
(OIG-12-042)
Appendix 4
Major Contributors to This Report




Rashmi Bartlett, Audit Manager
Christen Stevenson, Auditor in Charge
Alicia Bruce, Referencer




Material Loss Review of Pacific Coast National Bank, N.A.   Page 23
(OIG-12-042)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Pacific Coast National Bank, N.A.      Page 24
(OIG-12-042)
